U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                       Review of the Office of Justice Programs’
                          Forensic Science Improvement
                                   Grant Program


                                      December 2005




                                         I-2006-002
                               EXECUTIVE SUMMARY


       The Department of Justice Paul Coverdell Forensic Science
Improvement Grant Program (Coverdell Grant Program) provides funds to
state and local governments to improve the timeliness and quality of
forensic science and medical examiner services and to eliminate backlogs
in the analysis of forensic evidence. The National Institute of Justice
(NIJ), under the legal and fiscal oversight of the Office of Justice
Programs (OJP), plans to distribute almost $15 million in fiscal year (FY)
2005 Coverdell Grants.

      The Office of the Inspector General (OIG) evaluated the FY 2005
Coverdell Grant Program Announcement and application review process.
In particular, we focused on the new “external investigation certification”
requirement, imposed by the Justice for All Act of 2004, which requires
Coverdell Grant applicants to submit:

       A certification that a government entity exists and an
       appropriate process is in place to conduct independent
       external investigations into allegations of serious negligence
       or misconduct substantially affecting the integrity of the
       forensic results committed by employees or contractors of
       any forensic laboratory system, medical examiner’s office,
       coroner’s office, law enforcement storage facility, or medical
       facility in the State that will receive a portion of the grant
       amount. 1

RESULTS IN BRIEF

      NIJ did not enforce the external investigation certification
requirement imposed by the Justice for All Act of 2004. We found that
NIJ’s FY 2005 Coverdell Grant Program Announcement did not give
applicants necessary guidance. For example, in its announcement NIJ
did not provide examples of the types of government entities and
processes that could meet the certification requirement, did not direct
applicants to provide the name of the government entity that would
conduct investigations into allegations of serious negligence or
misconduct, and did not require a letter from the named government

       1  “External investigation certification” is NIJ’s term for the certification required
by the Omnibus Crime Control and Safe Streets Act of 1968, as amended by the Justice
for All Act of 2004 (Pub. L. 108-405), codified at 42 U.S.C. § 3797k(4).


______________________________________________________________________________________
U.S. Department of Justice                                                         i
Office of the Inspector General
Evaluation and Inspections Division
entity acknowledging its responsibility to conduct investigations.
Without the name of the government entity responsible for conducting an
independent external investigation, NIJ cannot evaluate the applicants’
certifications or provide effective oversight of that portion of the Coverdell
Grant Program.

NIJ did not provide necessary guidance to applicants in the FY 2005
Coverdell Grant Program Announcement.

       NIJ did not provide applicants with guidance on what constitutes
an independent external investigation in the FY 2005 Coverdell Grant
Program Announcement. Prior to the publication of the announcement,
NIJ received questions regarding the external investigation certification
requirement from the OIG, potential grant applicants, and the Innocence
Project but did not include necessary guidance in the announcement. 2
Those questions sought information regarding the types of government
entities and processes that could satisfy the certification requirement
imposed by the Justice for All Act of 2004. NIJ program managers and
attorneys in OJP’s Office of the General Counsel officials told us that
they considered providing more guidance in the Coverdell Grant Program
Announcement, but decided against it because the guidance would have
to cover a wide variety of state and local government entities and
investigation processes.

      The principal shortcomings in the FY 2005 Coverdell Grant
Program Announcement were NIJ’s failure to provide examples of
external investigation certifications and its failure to require applicants to
name the government entity responsible for conducting the independent
external investigation envisioned by the Justice for All Act of 2004.
Further, when applicants sought clarification of the certification
requirement in the announcement, NIJ still did not require them to name
the government entity. In response to the announcement, 74 of the 223
applicants did not submit an external investigation certification, and 56
other applicants simply quoted the statutory language but did not
provide the name of the government entity responsible for the
investigations.

      After NIJ’s FY 2005 Coverdell Grant Program Announcement was
published, the OIG reviewed the announcement and expressed concern


       2 The Innocence Project is a non-profit legal clinic and criminal justice reform
organization that represents clients involved in cases in which DNA testing of evidence
may yield conclusive proof of innocence.


______________________________________________________________________________________
U.S. Department of Justice                                                         ii
Office of the Inspector General
Evaluation and Inspections Division
to NIJ that the announcement did not provide applicants with sufficient
guidance on what constitutes an independent external investigation for
purposes of the certification. NIJ informed the OIG that it would not
provide additional general guidance to all applicants but would respond
to applicants’ questions and request the information necessary to
evaluate the certifications on a case-by-case basis.

NIJ did not request the information necessary to evaluate the
applicants’ external investigation certifications.

       After the applications were received, however, NIJ decided not to
respond to applicants’ questions or request information on a case-by-
case basis. Instead, in response to questions from applicants, NIJ
provided eight examples of the types of government entities and
processes that may or may not meet the external investigation
certification requirement. NIJ directed all 223 applicants to review the 8
examples and to complete a re-certification form provided by NIJ. The
form quoted the Justice for All Act of 2004 certification requirement and
directed applicants to provide only the name of the applicant agency and
the signature of a certifying official from the applicant agency. In
response, 198 applicants submitted re-certification forms; 25 applicants
did not re-certify and these applicants were not considered for Coverdell
Grants.

       Because NIJ still did not request the name of the government
entity responsible for conducting external investigations, the 198 re-
certification forms that the applicants submitted did not contain the
information necessary for NIJ to evaluate the certifications. Of the 198
applicants who re-certified, 129 submitted the re-certification form as
NIJ requested, and 69 submitted different information than that
requested on the re-certification form. Nonetheless, NIJ approved all 198
grant applications.

       After reviewing the external investigation certifications and
re-certification forms submitted to NIJ, we concluded that, prior to
approving the Coverdell Grant applications, NIJ should have required
each applicant to name the government entity in its certification.
Further, to address the confusion and clarify the requirements of the
certifications and re-certifications, we believe that NIJ also should have
considered requiring each applicant to provide a letter from the named
government entity acknowledging its obligation to conduct the




______________________________________________________________________________________
U.S. Department of Justice                                                         iii
Office of the Inspector General
Evaluation and Inspections Division
independent external investigations envisioned by the Justice for All Act
of 2004. 3 Yet, NIJ did not require any of that information.

CONCLUSION AND RECOMMENDATIONS

       NIJ did not enforce the external investigation certification
requirement imposed by the Justice for All Act of 2004 during the
application process or exercise effective oversight of this aspect of the FY
2005 Coverdell Grant Program. The FY 2005 Coverdell Grant Program
Announcement did not provide necessary guidance on how applicants
could meet the external investigation certification requirement. The
announcement also did not direct applicants to name the government
entity with a process in place to conduct independent external
investigations into allegations of serious negligence or misconduct under
the grant.

      We believe that Coverdell Grant Program Announcements must
provide necessary guidance to applicants and request the information
required for NIJ to evaluate the external investigation certifications and
conduct effective oversight of the grants. To meet the requirements of
the Justice for All Act of 2004, we recommend that OJP, as part of its
oversight of NIJ:

1. Require that all Coverdell Grant Program Announcements contain
   guidance on what constitutes an independent external investigation
   and examples of government entities and processes that could satisfy
   the certification requirement.

2. Require that each Coverdell Grant applicant, prior to receiving funds,
   provide the name of the government entity with a process in place to
   conduct independent external investigations into allegations of
   serious negligence or misconduct.

3. Consider requiring each Coverdell Grant applicant, prior to receiving
   funds, to submit a letter from the government entity that will conduct
   independent external investigations acknowledging that the entity has
   the authority and process to investigate allegations of serious
   negligence or misconduct.




       3 NIJ Guidelines: How to Submit Applications includes a requirement for grant
applicants to submit letters of cooperation and support or administrative agreements
from organizations with a significant responsibility under the grant.

______________________________________________________________________________________
U.S. Department of Justice                                                         iv
Office of the Inspector General
Evaluation and Inspections Division
                                TABLE OF CONTENTS



BACKGROUND ................................................................................ 1
PURPOSE, SCOPE, AND METHODOLOGY......................................... 6
RESULTS OF THE REVIEW.............................................................. 7
CONCLUSION AND RECOMMENDATIONS ...................................... 15
APPENDIX I .................................................................................. 16
APPENDIX II ................................................................................. 17
APPENDIX III ................................................................................ 24




______________________________________________________________________________________
U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                    BACKGROUND


       The Office of Justice Programs (OJP) is responsible for developing
programs to increase the nation’s capacity to prevent and control crime,
improve the criminal and juvenile justice systems, increase knowledge
about crime and related issues, and assist victims of crime. Led by an
Assistant Attorney General, OJP is divided into five bureaus that provide
training, collect and disseminate crime statistics, support technology
development and research, and administer Department grants. 4 In fiscal
year (FY) 2004, OJP and its bureaus awarded 4,333 grants totaling more
than $3.7 billion to state and local agencies to assist with criminal
justice activities. 5 To ensure the legal and fiscal responsibility of the
Department’s grant programs, OJP’s Office of the General Counsel, Office
of the Comptroller, and the Office of Budget and Management Services
provide legal and fiscal advice to all five of OJP’s bureaus.

       The National Institute of Justice (NIJ) is one of OJP’s five bureaus.
NIJ is the Department of Justice’s (Department) primary research,
development, and evaluation agency. NIJ also awards grants to
educational institutions, public agencies, non-profit and faith-based
organizations, individuals, and certain for-profit organizations to conduct
independent research on crime control and justice issues. Some of NIJ’s
major programs include social science research and evaluation,
technology development, forensic laboratory capacity development,
technology assistance for state and local public safety agencies, and
dissemination of information. In FY 2004, NIJ awarded 506 grants
totaling approximately $300 million.

NIJ Grant Process

       NIJ solicits grant applications by releasing grant announcements
on its web site or publishing them in the Federal Register. Grant
announcements contain the program and eligibility description,
application deadline, instructions for applying, and list of required
documents. Applicants are required to submit their applications through
an automated, online system called the Grants Management System,
operated by OJP. Applicants must provide certain information with

       4 The five OJP bureaus are the National Institute of Justice, the Bureau of
Justice Assistance, the Bureau of Justice Statistics, the Office of Juvenile Justice and
Delinquency Prevention, and the Office for Victims of Crime.

       5   See Office of Justice Programs Resource Guide, Fiscal Year 2005 Edition.


______________________________________________________________________________________
U.S. Department of Justice                                                       1
Office of the Inspector General
Evaluation and Inspections Division
grant applications, including a detailed program narrative and abstract
describing the purpose, goals, and objectives of the project to be funded;
a budget detail worksheet and narrative; and several standard forms. In
addition to these general documents, applicants must submit any
information required by the particular grant for which they are applying.

       NIJ’s grant announcements may also require that applicants make
certain assurances in their applications by certifying that they have
taken or will take certain actions and will comply with all applicable
federal statutes and regulations during the period covered by the grant.
In its publication, NIJ Guidelines: How to Submit Applications (NIJ
Guidelines), NIJ provides general instructions and a checklist for
completing grant applications in response to grant announcements.

       NIJ may also request that applicants provide additional
information to ensure that the application is accurate and that all
certifications are factually correct. If an applicant provides all requested
information and qualifies, the NIJ grant program manager forwards the
application to the NIJ Director for approval. If the NIJ Director approves
an application, OJP’s Office of the Comptroller and other OJP offices
review the application. The Assistant Attorney General for the Office of
Justice Programs’ signature is required before grant funds are paid.

Coverdell Grants

       The Paul Coverdell Forensic Science Improvement Grant Program
(Coverdell Grant Program), administered by NIJ, provides funds to state
and local governments to improve the timeliness and quality of forensic
science and medical examiner services. 6 The Coverdell Grant Program is
intended to assist state and local governments in eliminating backlogs in
analyzing forensic evidence, including controlled substances, firearms
examinations, forensic pathology, latent prints, questioned documents,
toxicology, and trace evidence, and to improve the quality and reliability
of forensic laboratory results.

       Studies and investigations funded by the Department, state and
local governments, and non-profit groups have identified backlogs in
processing forensic evidence at state and local crime laboratories and
have uncovered incidents of negligence and misconduct by laboratory


       6NIJ defines “state” or “states” to include the 50 states, the District of
Columbia, the Commonwealth of Puerto Rico, the U.S. Virgin Islands, American Samoa,
Guam, and the Commonwealth of the Northern Mariana Islands. For certain purposes,
American Samoa and the Northern Mariana Islands are treated as one state.

______________________________________________________________________________________
U.S. Department of Justice                                                       2
Office of the Inspector General
Evaluation and Inspections Division
employees and contractors in several states. For example, a Bureau of
Justice Statistics study of the 50 largest crime laboratories found that at
the end of 2002, these laboratories had a backlog of approximately
270,000 requests for forensic services, which represented a 132-percent
increase from the beginning of 2002. 7 In addition to these backlogs,
several investigations have identified instances of negligence and
misconduct in the processing of criminal evidence, such as DNA
evidence, in at least four different forensic crime laboratories. In another
example, a 2005 investigation of the Houston Police Department Crime
Laboratory found that two laboratory analysts engaged in multiple
incidents of scientific fraud for which they were not properly disciplined. 8

       Prior to October 30, 2004, the Omnibus Crime Control and Safe
Streets Act of 1968 required Coverdell Grant applicants to certify that:
(1) they have developed a consolidated state plan for forensic science
laboratories and a description of how the grant will be used to carry out
that plan; (2) any forensic science laboratory system, medical examiner’s
office, or coroner’s office that will receive some of the grant money uses
generally accepted laboratory practices and procedures established by
accrediting organizations; and (3) the amount of the grant used to
construct a new facility will not exceed the specified limitations.

FY 2005 Coverdell Grant Announcement and Application Review

       On October 30, 2004, Coverdell Grants became subject to a new
certification requirement. The Justice for All Act of 2004 amended the
Omnibus Crime Control and Safe Streets Act of 1968 to require a fourth
certification from all state or local government applicants for Coverdell
Grants. In addition to the first three certifications described above,
applicants must now provide:

       A certification that a government entity exists and an
       appropriate process is in place to conduct independent
       external investigations into allegations of serious negligence
       or misconduct substantially affecting the integrity of the
       forensic results committed by employees or contractors of
       any forensic laboratory system, medical examiner’s office,
       coroner’s office, law enforcement storage facility, or medical

       7 See 50 Largest Crime Labs, 2002 (Census of Publicly Funded Forensic Crime
Laboratories), Bureau of Justice Statistics Fact Sheet, September 2004.

       8See Third Report of the Independent Investigator for the Houston Police
Department Crime Laboratory and Property Room, June 30, 2005.


______________________________________________________________________________________
U.S. Department of Justice                                                       3
Office of the Inspector General
Evaluation and Inspections Division
       facility in the State that will receive a portion of the grant
       amount. 9

       During the Attorney General’s confirmation hearing on January 6,
2005, Senate Judiciary Committee members asked two questions about
the new Justice for All Act of 2004 certification requirement. The
Attorney General was asked if he would “rigorously enforce” the new
certification requirement. The Attorney General responded that if
confirmed, under his direction the Department would “rigorously enforce
the certification provision added by the Justice for All Act.”

      The Attorney General was then asked how the Department would
require timely certification for states applying for FY 2005 Coverdell
Grant funds. The Attorney General responded as follows:

       If confirmed, I will direct the NIJ to ensure that all applicants
       for [Coverdell] grant funds comply with this certification
       requirement. States that fail to provide this certification as
       part of the grant application process will be denied
       funding. 10

       In January 2005 representatives of the Innocence Project
expressed concerns regarding the external investigation certification and
Coverdell Grant applicants’ ability to certify. 11 Based on these concerns,
we asked NIJ how it planned to enforce the new certification
requirement. After NIJ discussed the matter with OJP’s Office of the
General Counsel, NIJ provided us with a plan to enforce the certification
requirement on April 13, 2005. NIJ planned to notify applicants of the
requirement, direct applicants to submit a certification as an appendix to
their applications, and deny funding to any applicant that failed to
provide the certification. NIJ notified applicants of the certification
requirement in the April 21, 2005, Coverdell Grant Program
Announcement, which established an application due date of May 24,
2005.


       9 The Omnibus Crime Control and Safe Streets Act of 1968, as amended by the

Justice for All Act of 2004 (Pub. L. 108-405), codified at 42 U.S.C. § 3797k(4).

       10 Confirmation Hearing on the Nomination of Alberto R. Gonzales to be Attorney
General of the United States, United States Senate, January 6, 2005, p. 184 (Questions
and Answers).

       11 The Innocence Project is a non-profit legal clinic and criminal justice reform
organization that represents clients involved in cases in which DNA testing of evidence
may yield conclusive proof of innocence.

______________________________________________________________________________________
U.S. Department of Justice                                                       4
Office of the Inspector General
Evaluation and Inspections Division
       On May 12, 2005, the OIG sent a memorandum to the NIJ Director
expressing concerns about the announcement and the external
investigation certification. On May 27, 2005, NIJ met with the OIG to
discuss our concerns that the announcement may not have provided
sufficient guidance to applicants on the required external investigation
certification or requested sufficient information from applicants for NIJ to
evaluate the certifications.

       On June 30, 2005, NIJ notified all the FY 2005 Coverdell
applicants via e-mail that the certifications they initially submitted would
not be considered and that they were required to re-certify. The June 30,
2005, e-mail contained a re-certification package which included
examples of external investigation certifications and a re-certification
form prepared by NIJ. The re-certification form quoted the Justice for All
Act of 2004 certification language and required the name of the applicant
agency and the signature of a certifying official from the applicant agency
(see Appendix I). NIJ instructed all applicants to submit the signed re-
certification forms online, through the Grants Management System, by
July 20, 2005. NIJ began reviewing the applications and re-certification
forms on July 21, 2005, and approved or disapproved the grant
applications, depending on the adequacy and completeness of the
applications. NIJ forwarded the approved grant applications to OJP with
a recommendation that they be considered for funding.




______________________________________________________________________________________
U.S. Department of Justice                                                       5
Office of the Inspector General
Evaluation and Inspections Division
                     PURPOSE, SCOPE, AND METHODOLOGY


Purpose

       The Office of the Inspector General (OIG) evaluated NIJ’s
implementation of the requirement in the Justice for All Act of 2004 that
Coverdell Grant applicants must certify that a government entity exists
and an appropriate process is in place to conduct independent external
investigations into allegations of serious negligence or misconduct. NIJ
refers to this requirement as the “external investigation certification.”

Scope

       The scope of this report is the development of the FY 2005
Coverdell Grant Program Announcement and the application review
process. The report focuses specifically on the external investigation
certification requirement of the Justice for All Act of 2004.

Methodology

       Interviews. We interviewed the former Principal Deputy Assistant
Attorney General, the OJP General Counsel and two attorneys in the
Office of the General Counsel who provided oversight and advice during
the FY 2005 Coverdell Grant application process. We interviewed three
representatives of the OJP’s Office of the Comptroller who reviewed
Coverdell Grant applications. We also interviewed the NIJ Director and
the managers responsible for the announcement and application review
process. We interviewed representatives from the Innocence Project
regarding the announcement and application review process.

       Document review. We reviewed NIJ and OJP documents,
including various NIJ grant announcements; NIJ’s Guidelines: How to
Submit Applications; the OJP Financial Guide 2005; the OJP Post-Award
Instructions; relevant statutes and regulations; congressional testimony;
articles and reports on problems identified with forensic laboratories; and
information contained on NIJ’s web site. We also reviewed NIJ and OJP
e-mails, letters, and memoranda documenting the development of the FY
2005 Coverdell Grant Program Announcement, including questions
applicants asked NIJ about the external investigation certification
requirement. To evaluate the certifications, we reviewed the FY 2005
Coverdell Grant Program Announcement and all 223 applications
submitted in response to the announcement.


______________________________________________________________________________________
U.S. Department of Justice                                                       6
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW


       In FY 2005, NIJ did not enforce the external
       investigation certification requirement of the Justice for
       All Act of 2004 or exercise effective oversight of the
       Coverdell Grant Program. Specifically, the FY 2005
       Coverdell Grant Program Announcement did not provide
       applicants with necessary guidance for meeting the
       external investigation certification requirement.      NIJ
       was aware of the shortcomings in the announcement but
       failed to correct them. The lack of guidance in the
       Coverdell Grant Program Announcement resulted in a
       variety     of   inadequate      external    investigation
       certifications.

NIJ did not provide necessary guidance to applicants in its FY 2005
Coverdell Grant Program Announcement.

       The FY 2005 Coverdell Grant Program Announcement did not
provide adequate guidance to potential applicants on how to meet the
external investigation certification requirement. The announcement did
not provide examples of the types of government entities and processes
that could meet the certification, or specify a particular format for
submitting the certification, such as a standard form, template letter, or
narrative description. Rather, NIJ simply informed potential applicants
that a certification was required by statute. The announcement also did
not require applicants to provide a statement naming the government
entity with a process in place to conduct the independent external
investigation required by the Justice for All Act of 2004. Because the
Department relies on applicants’ statements in the grant application
process, it is important that the applicants’ certifications contain
information necessary to evaluate the validity of the certification and to
support sanctions if applicants’ certifications are later determined to be
false. We believe that with regard to the external investigation
certification, the name of the government entity responsible for
conducting the investigations is necessary to evaluate the certification
and impose sanctions if the certification is later shown to be false.

      We asked NIJ why the FY 2005 Coverdell Grant Program
Announcement did not require applicants to provide the name of the
government entity as part of the external investigation certification. NIJ
responded that it is the applicants’ responsibility to decide whether they
can meet the certification requirement and that NIJ would accept the

______________________________________________________________________________________
U.S. Department of Justice                                                       7
Office of the Inspector General
Evaluation and Inspections Division
applicants’ certifications without requiring them to provide the name or
other information identifying the government entity responsible for
conducting independent external investigations. We asked OJP’s
General Counsel whether it would have been reasonable to require
applicants to provide a statement naming the government entity. The
General Counsel agreed that it would be reasonable to request that
applicants provide the name of the government entity.

NIJ was aware of the shortcomings in the FY 2005 Coverdell Grant
Program Announcement but failed to correct them.

       Prior to the publication of the FY 2005 Coverdell Grant Program
Announcement, NIJ received inquiries from potential applicants and
representatives from the Innocence Project on the external investigation
certification. In February 2005, representatives from the Innocence
Project and NIJ attended a panel discussion at the annual meeting of the
American Academy of Forensic Sciences. The panel discussion covered
the requirements of the external investigation certification, the types of
government entities that will oversee the investigations, the parameters
of the investigations, and the effect on other quality assurance program
obligations.

      Innocence Project representatives also expressed concerns
regarding the implementation of the certification requirement.
Specifically, Innocence Project representatives expressed the need for
Coverdell applicants to receive guidance on what constitutes an adequate
external investigation certification. Beginning in February 2005, the OIG
encouraged NIJ to provide guidance to potential applicants on the
external investigation certification and to seek advice from other
Department components and external organizations on how to
administer the external investigation certification requirement effectively.

       Rather than provide guidance on what constitutes an adequate
certification, OJP’s Office of the General Counsel and NIJ quoted the
legislative language for the certification requirement in the
announcement. NIJ stated it would respond to applicants’ specific
questions about the external investigation certification requirement (such
as whether or not a particular process might be appropriate) on a
case-by-case basis after consulting OJP’s Office of the General Counsel.
NIJ informed the OIG of this decision and its plan of action on April 13,
2005, and published the announcement on April 21, 2005.

       After the publication of the announcement, representatives from
some of the applicant agencies and other state and local government
officials questioned NIJ about the form and content of the external
______________________________________________________________________________________
U.S. Department of Justice                                                       8
Office of the Inspector General
Evaluation and Inspections Division
investigation certification. Representatives from at least five applicant
agencies requested clarification from NIJ on whether their agencies’
structure would permit them to certify that a government entity existed
and a process was in place to conduct the required independent external
investigation. NIJ staff forwarded these questions to OJP’s Office of the
General Counsel. According to attorneys in the Office of the General
Counsel, they provided informal guidance to applicants, without
dispensing legal advice, regarding the criteria to determine whether a
government entity existed and whether an appropriate process was in
place to conduct the required independent external investigations. OJP’s
Office of the General Counsel did not record the informal guidance it
provided to Coverdell Grant applicants.

       We asked the attorneys in OJP’s Office of the General Counsel how
they evaluated the information the applicants provided. They responded
that they did not tell applicants whether they could legally make the
external investigation certification because it is the applicant’s
responsibility to certify that a process is in place to conduct the required
investigations, and OJP’s Office of the General Counsel is not permitted
to provide legal advice to applicants. According to attorneys in OJP’s
Office of the General Counsel, they told applicants that the certification
does not require that the applicant agency be directly responsible for
conducting the investigations itself; rather, applicants are only
responsible for certifying that a government entity exists and an
appropriate process is in place to conduct independent external
investigations. Attorneys in OJP’s Office of the General Counsel stated
that if there were any doubts about the validity of a certification, it would
be NIJ’s responsibility to obtain additional information from the
applicants.

       On May 12, 2005, the OIG wrote to the NIJ Director, expressing
concerns about the announcement and the external investigation
certification. The OIG memorandum stated:

       We believe that the NIJ will not have the information
       necessary to evaluate the applications and to exercise
       effective oversight over the certification requirement. We
       also believe that grantees have not been given sufficient
       guidance as to what constitutes an independent external
       investigation.

       However, NIJ did not provide additional guidance as to what
constituted an appropriate process to conduct independent external
investigations before the application period closed. Instead, NIJ directed
the five applicants that asked specific questions to submit their
______________________________________________________________________________________
U.S. Department of Justice                                                       9
Office of the Inspector General
Evaluation and Inspections Division
applications − in order to meet the May 24, 2005, application deadline −
without the external investigation certifications. OJP’s Office of the
General Counsel recommended to NIJ that it flag these five applications
and ensure that the applicants submitted the external investigation
certifications before their applications were approved.

       OIG representatives met with NIJ on May 27, 2005. The OIG
expressed continued concern that NIJ would not have the information
necessary to evaluate the external investigation certification requirement
in the applications and to exercise effective oversight over that
requirement. However, NIJ did not revise and reissue the FY 2005
Coverdell Grant Program Announcement to include guidance or collect
additional information from individual applicants on a case-by-case
basis.

The lack of guidance in the Coverdell Grant Program Announcement
and NIJ’s response to the applicants’ questions resulted in
inadequate certifications.

       The OIG reviewed the external investigation certifications in all 223
FY 2005 Coverdell applications. We found that 87 applicants did not
submit any external investigation certification or submitted incomplete
certifications. 12 Another 56 applicants quoted the Justice for All Act of
2004 but did not provide the name of the government entity that would
conduct the independent external investigations (Chart 1, next page).
OJP’s Office of the General Counsel told us that NIJ did not request that
they review the 149 applications that contained external investigation
certifications to determine the legal adequacy of the certification.
Consequently, OJP’s Office of the General Counsel told us it was
unaware that some of the initial certifications did not contain the
information required by statute.




       12   The 13 incomplete certifications were submitted by 8 applicants who certified
that a process was in place but did not name entity other than themselves; 4 applicants
who certified the existence of more than 1 government entity, but did not certify that
any processes were in place; and 1 applicant who certified that it would collect
certifications from grant recipients prior to distributing funds.

______________________________________________________________________________________
U.S. Department of Justice                                                      10
Office of the Inspector General
Evaluation and Inspections Division
 Chart 1: Types of External Investigation Certifications Submitted
             by the 223 FY 2005 Coverdell Applicants



                                                            Provided letter or
                                                           signed certification
            Provided certification
                                                            from government
               and name of
                                                               entity (9)
             government entity
                   (71)




                                                                     Quoted statute (56)


                Did not provide
                 certification or
              provided incomplete
                certification (87)




Source: OIG analysis of FY 2005 Coverdell applications received by NIJ

       We believe the inadequate certifications were caused by NIJ’s
failure to provide adequate guidance to applicants and to request, in the
Coverdell Grant Program Announcement, a statement from the
applicants containing the name of the government entity responsible for
conducting the independent external investigation envisioned by the
Justice for All Act of 2004. Providing the name of the government entity
would not be an undue burden on applicants; more than half (80 of 149)
of the applicants who submitted external investigation certifications
named the government entity responsible for conducting independent
external investigations or provided a letter from the government entity
even though they were not required to do so.




______________________________________________________________________________________
U.S. Department of Justice                                                      11
Office of the Inspector General
Evaluation and Inspections Division
       After the FY 2005 Coverdell Grant applications were
       received, NIJ provided additional guidance but directed
       applicants to complete a re-certification form that did
       not request the information necessary for NIJ to
       evaluate     the  applicants’  external    investigation
       certifications.

NIJ’s re-certification form did not provide specific guidance to
applicants.

        After receiving these applications, NIJ decided to provide general
guidance and require all applicants to complete a re-certification form.
NIJ disseminated the form as part of a re-certification package it
provided to all 223 applicants via e-mail on June 30, 2005. In addition
to the re-certification form, NIJ provided applicants with guidance to
assist them in determining whether they could properly make the
certification. The guidance contained eight factual examples of
government entities and processes under which an external investigation
certification might or might not be appropriate. NIJ instructed
applicants to review the statutory requirements and the eight examples
to determine whether they could properly make the external certification.
If, after reviewing the information, an applicant determined that it could
certify, an appropriate official for the applicant agency was to simply sign
the re-certification form.

       As shown in Appendix I, the re-certification form only required the
name of the applicant agency and a signature from the applicant
agency’s certifying official. NIJ stated that the certifying official must be
both familiar with the requirements of the certification and have the
authority to make such a certification on behalf of the applicants. NIJ
told applicants not to submit specific documentation on the government
entity or process that they had in place for conducting investigations.
Applicants were to submit the signed re-certification forms by July 20,
2005.

The re-certification forms did not require applicants to submit the
information necessary to evaluate the applicants’ certifications.

       While NIJ’s re-certification effort finally provided some guidance to
applicants as to what constituted a government entity with an
appropriate process in place to conduct independent external
investigations, the re-certification process was still flawed. The re-
certification form NIJ instructed applicants to submit did not require
them to name the government entity that would conduct independent
external investigations. It also did not provide any evidence that the
______________________________________________________________________________________
U.S. Department of Justice                                                      12
Office of the Inspector General
Evaluation and Inspections Division
government entity acknowledged its responsibility, under the Justice for
All Act of 2004, to investigate allegations of serious negligence or
misconduct by the grant recipient.

       Rather than requiring re-certification forms, we believe that after
NIJ received the applications containing inadequate certifications, NIJ
should have required all applicants to name the government entity in the
certification. We also believe that NIJ should have considered whether to
require applicants to provide a letter from that entity acknowledging its
responsibility to investigate allegations of serious negligence or
misconduct. NIJ’s Guidelines include a requirement for grant applicants
to submit letters of cooperation and support or administrative
agreements from organizations with a significant responsibility under the
grant. 13 NIJ has required such letters in two other grant
announcements: the Forensic Casework DNA Backlog Reduction
Program (FY 2005) and the Convicted Offender DNA Backlog Reduction
Program (FY 2005).

       Because of NIJ’s failure to require this information, none of the re-
certification forms submitted by the applicants contained the information
necessary for NIJ to evaluate the external investigation certifications. Of
the 223 applicants, 25 did not re-certify. Of the 198 applicants that re-
certified, 129 submitted the re-certification form that NIJ requested, 33
submitted certifications signed by an official of an agency other than the
applicant, and 36 submitted forms that did not clearly indicate the name
of the government agency submitting the certification (Chart 2, next
page). However, NIJ approved all 198 grant applications.




       13See National Institute of Justice Guidelines: How to Submit Applications,
March 2005, p. 16.


______________________________________________________________________________________
U.S. Department of Justice                                                      13
Office of the Inspector General
Evaluation and Inspections Division
                  Chart 2: Types of Re-certifications Submitted by
                    the 223 FY 2005 Coverdell Applicants

                                        Submitted re-
                                      certification form
                                    that did not indicate
                                    name of government
                                         agency (36)


      Submitted re-
    certification form
   signed by official of
    agency other than                                                     Submitted re-
      applicant (33)                                                     certification on
                                                                       NIJ's requested form
                                                                               (129)




   Did not submit a re-
    certification form
            (25)


Source: OIG analysis of FY 2005 Coverdell re-certification forms received by NIJ

       In fact, in some cases, NIJ’s re-certification form gathered less
information than some applicants were willing to supply voluntarily. We
found that 51 applicants that named the government entity on their
original certifications did not do so on their re-certification forms. We
also determined that NIJ did not ask OJP’s Office of the General Counsel
to review the applicants’ re-certification forms; OJP’s Office of the
General Counsel was therefore unaware that some of the re-certification
forms did not contain the name of the applicant agency that NIJ
requested, or that some were not signed by an appropriate official of the
applicant agency.

       Rather than relying on a form, we believe that adopting the
practice of requiring Coverdell Grant applicants to submit a letter from
the government entity responsible for conducting the independent
external investigations could: (1) reduce applicants’ confusion over their
ability to submit the certification, (2) produce a greater number of
complete certifications, and (3) increase NIJ’s and OJP’s ability to
evaluate the applicants’ certifications.




______________________________________________________________________________________
U.S. Department of Justice                                                      14
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS


       NIJ did not enforce the external investigation certification
requirement imposed by the Justice for All Act of 2004 during the
application process or exercise effective oversight of this aspect of the FY
2005 Coverdell Grant Program. The FY 2005 Coverdell Grant Program
Announcement did not provide necessary guidance on how applicants
could meet the external investigation certification requirement. The
announcement also did not direct applicants to name the government
entity with a process in place to conduct independent external
investigations into allegations of serious negligence or misconduct under
the grant.

      We believe that Coverdell Grant Program Announcements must
provide necessary guidance to applicants and request the information
required for NIJ to evaluate the external investigation certifications and
conduct effective oversight of the grants. To meet the requirements of
the Justice for All Act of 2004, we recommend that OJP, as part of its
oversight of NIJ:

1. Require that all Coverdell Grant Program Announcements contain
   guidance on what constitutes an independent external investigation
   and examples of government entities and processes that could satisfy
   the certification requirement.

2. Require that each Coverdell Grant applicant, prior to receiving funds,
   provide the name of the government entity with a process in place to
   conduct independent external investigations into allegations of
   serious negligence or misconduct.

3. Consider requiring each Coverdell Grant applicant, prior to receiving
   funds, to submit a letter from the government entity that will conduct
   independent external investigations acknowledging that the entity has
   the authority and process to investigate allegations of serious
   negligence or misconduct.




______________________________________________________________________________________
U.S. Department of Justice                                                      15
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX I: FY 2005 COVERDELL GRANT APPLICATION
                    RE-CERTIFICATION FORM




    Paul Coverdell Forensic Science Improvement Grant Program Certification




I, (certifying official name and title), certify that a government entity exists and an
appropriate process is in place to conduct independent external investigations into
allegations of serious negligence or misconduct substantially affecting the integrity of the
forensic results committed by employees or contractors of any forensic laboratory
system, medical examiner's office, coroner's office, law enforcement storage facility, or
medical facility in the State that will receive a portion of the grant amount.



___________________________________                                  __________________
Signature of Certifying Official                                     Date


_________________________________                                  __________________
Applicant                                                          Telephone Number




______________________________________________________________________________________
U.S. Department of Justice                                                      16
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX II: OFFICE OF JUSTICE PROGRAMS’ RESPONSE




______________________________________________________________________________________
U.S. Department of Justice                                                      17
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      18
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      19
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      20
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      21
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      22
Office of the Inspector General
Evaluation and Inspections Division
______________________________________________________________________________________
U.S. Department of Justice                                                      23
Office of the Inspector General
Evaluation and Inspections Division
         APPENDIX III: OIG’S ANALYSIS OF OJP’S RESPONSE


      On October 13, 2005, the Office of the Inspector General (OIG) sent
copies of the draft report to the Office of Justice Programs (OJP) with a
request for written comments. OJP responded to us in a memorandum
dated November 4, 2005. The actions taken and planned by OJP to
enforce the external investigation certification requirement imposed by
the Justice for All Act of 2004 are responsive in part to our
recommendations.

OJP’s Response

       OJP did not agree with our finding that the National Institute of
Justice (NIJ) “did not enforce the external investigation certification
requirement imposed by the Justice for All Act of 2004 [42 U.S.C.
§ 3797k(4)] during the application process or exercise effective oversight
of this aspect of the FY 2005 Coverdell Grant Program.”

       In explaining its disagreement, OJP suggested – although it did not
explicitly state – that it does not have the legal authority to implement
the external investigation certification requirement in the manner that we
suggest. OJP stated it was acting on advice of OJP counsel when it
concluded that § 3797k(4) does not require that an independent external
investigation process is in place before NIJ makes an award. Rather,
according to OJP, the statute restricts NIJ to merely ensuring that a
certification is in place before NIJ issues an award. OJP submitted that
its interpretation of § 3797k(4) “makes the applicants themselves
primarily responsible” for determining that a government entity exists
and a process is in place to conduct independent external investigations
rather than placing the responsibility on OJP. OJP concluded that once
formula program applicants (which receive about 75 percent of the total
funding) have made the required certifications, “NIJ is statutorily denied
any substantive discretion in deciding which applicants are eligible.”

      In support of the validity of the existing NIJ process, OJP’s
response also noted that NIJ provided additional guidance to the
FY 2005 applicants and that “NIJ did not fund seven applications for the
competitive portion of the program and two State applications for the
formula portion of the program because the applicants did not submit
the certification required by § 3797k(4) and the [FY 2005] Coverdell
Grant Program Announcement.” OJP’s response also reported, “Of the
69 certifications that the Draft Report indicates vary from the form NIJ


______________________________________________________________________________________
U.S. Department of Justice                                                      24
Office of the Inspector General
Evaluation and Inspections Division
prescribed, only 37 pertain to applications that were in fact funded by
NIJ.”

       In response to our recommendations that each Coverdell Grant
applicant be required to provide the name of the government entity that
will conduct any external investigation and that OJP consider requiring a
letter from the government entity, OJP stated, “Because the Coverdell
[Grant] [P]rogram is in large part a formula program, it is not clear that
such an extra-statutory requirement would be legally defensible.” OJP’s
response also suggested that the burden of providing the name of the
government entity and a letter from the government entity “on applicants
and/or NIJ well might be significantly heavier than the OIG may believe.”

OIG Analysis of OJP’s Response

      The OIG disagrees with OJP’s suggestion that NIJ lacks the legal
authority to execute our recommendations. First, the plain language of
the statute itself grants this authority to NIJ. Second, NIJ’s actions in
similar contexts demonstrate that it has the authority to implement our
recommendations.

       Section 3797k(4) provides that a state shall submit “a certification
that a government entity exists and an appropriate process is in place to
conduct independent external investigations” into allegations of serious
negligence or misconduct. Clearly, in enacting § 3797k(4), Congress
intended to do more than merely extract a promise from the applicants
that an external investigation process was in place. Rather, Congress
intended for the applicants to actually put such a process into place
prior to receiving grant funds.

       As the agency charged by Congress with implementing the
Coverdell Grant Program, NIJ has inherent authority to regulate the
grant application process to ensure that an external investigation process
is in place. The statute expressly gives the Attorney General the
authority to promulgate “procedures relating to the submission and
review of applications for grants” under § 3797k. 14 A reading of the plain
language of § 3797k(4), coupled with § 3797n, demonstrates that NIJ
may require that the external investigation certification submitted by
applicants contain both the name of the investigative government entity
and a letter of support from that entity.


       1442 U.S.C. § 3797n; see also 28 C.F.R. Part 66, Uniform Administrative
Requirements for Grants and Cooperative Agreements to State and Local Governments.

______________________________________________________________________________________
U.S. Department of Justice                                                      25
Office of the Inspector General
Evaluation and Inspections Division
      Moreover, even if the statute were to be considered ambiguous on
this point, NIJ, as the agency charged with its implementation, may
reasonably interpret the statute in the course of implementation. We
believe that an interpretation that the statute would allow OJP to require
applicants to submit both the name of the government entity and a letter
of support is a reasonable interpretation that would be entitled to
deference and would withstand challenge under the Administrative
Procedures Act. 15

       We also disagree with OJP’s conclusion that requiring the
certification process to include the identity of the government entity and
requiring a letter of support from that government entity shifts the
responsibility for setting up such a process from the grant applicant to
NIJ. Requiring grant applicants to submit the government entity’s
identity and a letter of support will provide a strong disincentive for any
grant applicant to make the requisite certification without first
communicating with a government entity and establishing a process for
conducting external investigations. The reason for this requirement is
clear – by identifying the government entity, the certification becomes
readily verifiable. Thus, rather than shifting the burden to OJP, our
recommendation will make it more likely that the applicant will meet its
burden of establishing an external investigation process and will make it
easier for OJP to exercise its oversight function.

       OJP acknowledged this oversight function in its response when it
stated that “if there were a credible allegation or credible evidence that a
particular certification was false or faulty, NIJ would have a duty to
inquire.” Surely, if the statute authorizes OJP to investigate allegations
of false certifications, the statute also authorizes OJP to implement
procedures to prevent false certifications in the first place.

       NIJ’s argument that it has no discretion in awarding the formula
portion of the program is similarly unpersuasive. Even with funds
specifically directed to be allocated to particular states, Congress
required that these funds only be awarded to a state that “meets the
requirements of § 3797k.” 16 NIJ, by requiring that applicants provide the
name of the government entity and a letter of support from that entity,
can ensure that states receiving formula-funded grants are meeting the
requirements of § 3797k as directed by Congress.


          15   Chevron USA, Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837
(1984).

          16   42 U.S.C. § 3797l.

______________________________________________________________________________________
U.S. Department of Justice                                                      26
Office of the Inspector General
Evaluation and Inspections Division
       Significantly, OJP’s position that NIJ lacks substantive
discretion and may request and accept only the information
specifically prescribed by § 3797k(4) from Coverdell Grant applicants
is inconsistent with NIJ’s own actions with regard to the FY 2005
Coverdell Grant external investigation certifications. The 223
applications we reviewed showed that NIJ exercised its substantive
discretion in both rejecting certifications that followed the prescribed
format and accepting certifications that did not follow the prescribed
format:

   •   NIJ rejected 149 external investigation certifications presented
       with the original Coverdell Grant Applications and required
       applicants to re-certify;

   •   NIJ directed five applicants to submit their applications − in
       order to meet the May 24, 2005, application deadline − without
       an external investigation certification; and

   •   NIJ funded 37 applications containing an external investigation
       certification that the OIG found was not in the form prescribed
       by NIJ.

       NIJ’s actions in the context of other grant applications also
demonstrate that NIJ has exercised similar authority in the past. As
stated in the draft report, NIJ’s Guidelines include a requirement for
grant applicants to submit letters of cooperation and support or
administrative agreements from organizations with a significant
responsibility under the grant. NIJ has required such letters in two
other grant announcements. There is no obvious reason why NIJ is
permitted to prescribe procedures for grant applicants in these other
contexts, but not for the Coverdell Grant Program. Indeed, NIJ’s own
actions in administering the FY 2005 Coverdell Grant Program suggest
that NIJ understands it does have discretion to interpret § 3797k(4). If
NIJ has the authority to reject certifications in their entirety and to
consider applications with no certifications, it must also have the
authority to request the information reasonably necessary to evaluate the
certifications that applicants do submit.

      Finally, to the extent that OJP rejected our legal analysis and
recommendations because OJP believed that it lacks the legal authority
to implement the recommendations, then we recommend that OJP seek
an opinion on this issue from the Office of Legal Counsel (OLC) pursuant


______________________________________________________________________________________
U.S. Department of Justice                                                      27
Office of the Inspector General
Evaluation and Inspections Division
to 28 C.F.R. § 0.25; 28 U.S.C. § 512. Once the legal issue is resolved,
then OJP can reevaluate our recommendations as a matter of policy.

RECOMMENDATIONS

      Recommendation 1: Require that all Coverdell Grant Program
Announcements contain guidance on what constitutes an independent
external investigation and examples of government entities and processes
that could satisfy the certification requirement.

       Status: Recommendation 1 is Resolved – Open.

      Summary of OJP’s Response. As a matter of policy, OJP concurred
with our recommendation and stated that NIJ will provide guidance
(including examples) in future Coverdell Grant Program Announcements.
NIJ’s guidance will be designed to illustrate elements of the external
investigation certification that an applicant must take into account in
determining whether it can make the external investigation certification.
OJP stated that the guidance it plans to provide is not required by
statute.

      OIG Analysis. The actions taken and planned by OJP to provide
guidance to Coverdell Grant Program applicants are responsive to our
recommendation. Our recommendation was not based on a statutory
requirement; it was based on NIJ’s program management responsibility
to provide guidance to applicants whether or not a specific statute
requires that NIJ provide guidance for a specific certification.

     So that we may evaluate the implementation of this
recommendation, please provide a copy of the draft of the FY 2006
Coverdell Grant Program Announcement before it is published.

       Recommendation 2: Require that each Coverdell Grant
applicant, prior to receiving funds, provide the name of the government
entity with a process in place to conduct independent external
investigations into allegations of serious negligence or misconduct.

       Status: Recommendation 2 is Unresolved – Open.

       Summary of OJP’s Response. OJP did not agree to require
Coverdell Grant applicants to provide the name of the government entity
because § 3797k(4) “includes no such requirement.” Further, OJP
stated, “It is not clear that such an extra-statutory requirement would be
legally defensible. . . . OJP and NIJ will, however, consider requesting,
as an optional matter, in future Coverdell Grant Program
______________________________________________________________________________________
U.S. Department of Justice                                                      28
Office of the Inspector General
Evaluation and Inspections Division
Announcements that applicants provide the information that the OIG
suggests we require as a mandatory matter.”

       OIG Analysis. To properly administer Coverdell Grants, NIJ should
prescribe the form and content of certifications, review applicants’
certifications to decide if the specific information is adequate, and
determine if each application is acceptable. If OJP disagrees with our
legal analysis and concludes that NIJ does not have the statutory
authority to implement this recommendation, we recommend that this
issue be referred to OLC for resolution. If OLC determines that NIJ has
the authority to implement this recommendation, OJP should reconsider
its decision not to require applicants to submit the names of the
government entities. Please provide us with a description of OJP’s
decision by January 31, 2006.

      Recommendation 3: Consider requiring each Coverdell Grant
applicant, prior to receiving funds, to submit a letter from the
government entity that will conduct independent external investigations
acknowledging that the entity has the authority and process to
investigate allegations of serious negligence or misconduct.

       Status: Recommendation 3 is Unresolved – Open.

      Summary of OJP’s Response. OJP considered requiring each
Coverdell Grant applicant to submit a letter from the government entity,
but elected not to do so at least in part because, “It is not clear that such
an extra-statutory requirement would be legally defensible.”

       OIG Analysis. Based on OJP’s response, it appears that OJP and
NIJ are rejecting this recommendation because they believe they lack the
requisite authority to implement it, despite the OIG’s conclusion to the
contrary. To resolve this legal disagreement, OJP should refer the
question to OLC for resolution. Should OLC determine that OJP has the
requisite authority, OJP should reconsider its decision not to require
each Coverdell Grant applicant to submit a letter from the government
entity that will conduct independent external investigations. Please
provide us with your decision by January 31, 2006.




______________________________________________________________________________________
U.S. Department of Justice                                                      29
Office of the Inspector General
Evaluation and Inspections Division
